Office of the Inspector General     Audit Report
                                  To the Senior Vice President,
                                  Marketing




REVIEW OF
energy right®
PROGRAM PAYMENTS




Audit Team                                        Audit 2005-003F
D. Nikolaus Jordan                                   July 19, 2005
Kristi U. Reynolds
Memorandum from the Office of the Inspector General



July 19, 2005

James D. Keiffer, OCP 2E-NST

REQUEST FOR MANAGEMENT DECISION – AUDIT 2005-003F – REVIEW OF ENERGY
RIGHT® PROGRAM PAYMENTS



Attached is the subject final report for your review and management decision. Your staff's
comments have been incorporated in the final report. You are responsible for determining
the necessary actions to take in response to our findings. Please advise us of your
management decision within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact D. Nikolaus Jordan, Auditor, at (865) 632-2135 or
Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 751-7821. We
appreciate the courtesy and cooperation received from your staff during the audit.



Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DNJ:SDB
Attachment
cc (Attachment):
     Tom D. Kilgore, ET 12A-K
     Richard W. Moore, ET 4C-K
     Ellen Robinson, ET 12A-K
     James N. West, OCP 2F-NST
     OIG File No. 2005-003F
Office of the Inspector General                                                      Audit Report


TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................i

BACKGROUND ................................................................................1
    HEAT PUMP PLAN .........................................................................1

    WATER HEATER PLAN ..................................................................2

OBJECTIVES, SCOPE, AND METHODOLOGY ......................3

FINDINGS ..........................................................................................4
    CALCULATION OF MARKET VALUE PAYMENTS ........................4

    MONITORING OF MARKET VALUE PAYMENTS ..........................5

    DISBURSEMENT OF MARKET VALUE PAYMENTS .....................6

    energy right® PROGRAM PROCESS/DOCUMENTATION
    REQUIREMENTS............................................................................7
       Heat Pump Plan Noncompliance ....................................................7
       Water Heater Plan Noncompliance .................................................8

RECOMMENDATIONS ...................................................................8

MANAGEMENT'S RESPONSE ....................................................9


APPENDIX
COMPLIANCE WITH energy right® PROGRAM DOCUMENTATION
GUIDELINES




Audit 2005-003F
Office of the Inspector General                                                    Audit Report

EXECUTIVE SUMMARY
Tennessee Valley Authority (TVA) distributors can participate in the
energy right® Program, which was implemented to "promote the wider
and better use of electricity by Distributor's residential and small
commercial business customers, thereby permitting rates to be lower
than would otherwise be necessary." Two facets of the energy right
Program are the Heat Pump Plan (HP Plan) and the Water Heater Plan
(WH Plan). Participating distributors receive Market Value Payments
(MVPs) i from TVA based on the installation of energy-efficient heat
pumps and water heaters. According to TVA Customer Service and
Marketing's (CS&M) Residential and Small Commercial Products and
Services (RSCPS), fiscal year (FY) 2004 MVPs totaled $1.5 million for
heat pumps and over $700,000 for water heaters, which represented
7,235 heat pump and 16,067 water heater installations.

In order to further promote the installation of energy-efficient heat
pumps, TVA makes financing available through a third-party financer,
AmSouth Bank (AmSouth). ii According to RSCPS, (1) AmSouth
executed a total of $23.2 million energy right Program heat pump loans
in FY 2004, and (2) the total loan portfolio balance as of September 30,
2004, was about $106 million. RSCPS also stated that 377 loans
totaling about $1.1 million were written off as uncollectible in FY 2004.

We reviewed energy right Program MVPs to determine if payments
were accurately calculated, effectively monitored, and properly
disbursed. We also reviewed energy right Program transactions and
supporting documentation to assess energy right Program
process/documentation compliance. In summary, we found:

•      MVPs for water heaters and heat pumps were generally applied
       correctly, and total invoice amounts were generally accurate
       including adjustments to applicable invoices. However, we found
       five pending MVPs that were apparently not paid, which related to
       (1) three invoices that could not be found and TVA Accounts
       Payable concluded were not paid and (2) one invoice where two
       applicable MVPs were not included. Also, the energy right
       Information System (erIS) does not provide the means to
       document and track adjustments.




i
     MVPs are a "monetary payment provided by TVA to Distributor for the installation of an
     energy-efficient measure that meets energy right Program requirements."
ii
     TVA does not provide a financing program for water heater installations.

Audit 2005-003F                                                                          Page i
Office of the Inspector General                                                    Audit Report

•       RSCPS personnel monitor MVPs by (1) requiring distributors to
        review and certify invoices and (2) reviewing erIS information for
        duplicate and/or unusual transactions. However, we found some
        MVPs were paid without complete and/or accurate erIS
        information.
•       Distributors generally received MVPs in accordance with the
        energy right Program documentation guidelines. However, no
        verification occurred to ensure MVPs were made to distributors as
        approved by CS&M district specialists.
•       Distributors' noncompliance with certain energy right Program
        process/documentation requirements increased TVA's financial
        risks. Specifically, required HP Plan and WH Plan documentation
        was not completed and/or prepared for some installations as
        required by the energy right Program guidelines. However, Quality
        Contractor Network (QCN) contractors iii were used for heat pump
        installations as required.

We recommend the Senior Vice President, Marketing, take steps to:

•       Ensure adjustments are documented and tracked.
•       Ensure MVPs are supported by required erIS information. Also,
        consideration should be given to requiring the participant's name
        be included in erIS.
•       Require verification that payments to distributors were made as
        approved by district specialists.
•       Ensure that distributors comply with energy right Program
        documentation guidelines.

We have discussed the findings, conclusions, and recommendations
with management, and they agree with our report and have taken or
plan to take corrective action.




iii
      To be listed in the QCN, contractors must meet certain TVA requirements and be listed by a
      distributor as eligible to install heat pumps.
Audit 2005-003F                                                                          Page ii
Office of the Inspector General                                                   Audit Report

BACKGROUND
Tennessee Valley Authority (TVA) distributors can participate in the
energy right® Program, which was implemented to "promote the wider
and better use of electricity by Distributor's residential and small
commercial business customers, thereby permitting rates to be lower
than would otherwise be necessary." Two facets of the energy right
Program are the Heat Pump Plan (HP Plan) and the Water Heater Plan
(WH Plan). Participating distributors receive Market Value Payments
(MVPs) 1 from TVA based on the installation of energy-efficient heat
pumps and water heaters. According to TVA Customer Service and
Marketing's (CS&M) Residential and Small Commercial Products and
Services (RSCPS), fiscal year (FY) 2004 MVPs totaled $1.5 million for
heat pumps and over $700,000 for water heaters, which represented
7,235 heat pump and 16,067 water heater installations.

Upon completion of water heater and heat pump installations,
participating distributors or TVA personnel input information into TVA's
energy right Information System (erIS). Information is extracted
bimonthly from erIS and reviewed by RSCPS's personnel for
reasonableness and duplication. 2 The installation information is sent to
the CS&M district specialists for review and approval. District
specialists generate and approve invoices that are sent to each
participating distributor for certification. Distributors submit the certified
invoices to TVA Accounts Payable for payment.

HEAT PUMP PLAN
In order to further promote the installation of energy-efficient heat
pumps, TVA makes financing available through a third-party financer,
AmSouth Bank (AmSouth). 3 AmSouth provides banking expertise and
administration of the loan program. The distributor "will be the lender
and the secured party for purposes of making the ultimate credit
decision, preparing the documentation and collecting the monthly
payments." However, as the financer, AmSouth has full recourse to
TVA for any loan payments not received, and TVA excuses the
distributor from uncollectible loan amounts as long as the distributor
complies with the collection procedures. According to RSCPS,
(1) AmSouth executed a total of $23.2 million energy right Program heat
pump loans in FY 2004, and (2) the total loan portfolio balance as of


1
    MVPs are a "monetary payment provided by TVA to Distributor for the installation of an
    energy-efficient measure that meets energy right Program requirements."
2
    erIS installation information is downloaded into spreadsheets to facilitate review and
    approval.
3
  TVA does not provide a financing program for water heater installations.
Audit 2005-003F                                                                        Page 1
Office of the Inspector General                                                     Audit Report

September 30, 2004, was about $106 million. RSCPS also stated that
377 loans totaling about $1.1 million were written off as uncollectible in
FY 2004.

Distributor-required HP Plan responsibilities, as prescribed in the TVA
energy right® Program Reference Manual, include providing eligibility,
installation, financing, and funding controls. Specifically, distributors are
required to, among other things:

•   Ensure eligibility requirements for financing have been met.
•   Ensure all energy right Program documents are complete, have
    required signatures, and are retained in accordance with energy
    right Program guidelines.
•   Obtain a perfected security interest 4 in installed/financed heat
    pumps.
•   Ensure work has been completed in accordance with energy right
    Program specifications and meets TVA minimum inspection
    requirements.
•   Ensure heat pumps are installed by a contractor in TVA's Quality
    Contractor Network (QCN). 5

WATER HEATER PLAN
The WH Plan is "designed to encourage the installation of energy
efficient AEWHs [all-electric water heaters] in Dwellings and
Businesses." While TVA does not provide a financing program for
installations of water heaters, CS&M energy right information states,
"The energy right Program can help you choose a safe, reliable, and
efficient electric water heater."

The TVA energy right Program agreement between TVA and
distributors states, "If participating in the WH Plan and if requested by
TVA, Distributor shall provide a WCF [work completion form] as
evidence that each AEWH submitted for an MVP has been installed."
The WCF is the primary supporting documentation requirement beyond
submitting information into erIS and certifying each invoice.




4
  Perfection of a security interest occurs when "a financing statement is properly filed or there
  is possession or control over the collateral."
5
  To be listed in the QCN, contractors must meet certain TVA requirements and be listed by a
  distributor as eligible to install heat pumps.
Audit 2005-003F                                                                          Page 2
Office of the Inspector General                                                   Audit Report


OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to (1) determine if energy right Program MVPs
were accurately calculated, effectively monitored, and properly
disbursed and (2) assess energy right Program
process/documentation compliance. The scope of the audit included
energy right Program MVPs for heat pumps and water heaters
installed during FY 2004 and other selected transactions for the period
October 1, 2003, through December 26, 2004.

To achieve our objectives, we:

•     Obtained an understanding of the controls and processes relating to
      the energy right Program by:
      − Reviewing CS&M documentation including the CS&M and energy
         right website, an agreement/contract between TVA and
         distributors, and the energy right® Program Reference Manual.
      − Interviewing representatives of TVA's CS&M organization.
      − Reviewing and updating the flowchart of the MVP incentive
         process and controls.
•     Reviewed energy right Program transactions to verify that (1) MVP
      invoice totals were accurate and distributors received payment,
      (2) no duplicate transactions existed, (3) invoice totals and
      adjustments were supported by erIS or other supporting
      documentation, and (4) distributors and TVA complied with energy
      right Program documentation guidelines. Specifically, we reviewed
      59 of 6,767 heat pump and 59 of 14,904 water heater installations
      performed in FY 2004 as identified by erIS. 6
•     Judgmentally selected and reviewed 61 heat pump installations with
      loans funded through AmSouth between January 1, 2004, and
      December 26, 2004, to further assess compliance with energy right
      Program guidelines. For the heat pump transactions judgmentally
      and statistically selected, as discussed above, we contacted
      distributors to obtain applicable supporting energy right Program
      documentation and to verify heat pump loan payments.

This audit was performed in accordance with generally accepted
government auditing standards. Although we did not test for
compliance with laws and regulations, nothing came to our attention
during the audit that indicated noncompliance with laws and regulations.
6
    We used statistical attribute sampling methodology to identify sample sizes, and the sample
    selections were made randomly. Each sample size was based on a 5 percent maximum
    tolerable error rate and a 5 percent risk of incorrect acceptance.
Audit 2005-003F                                                                        Page 3
Office of the Inspector General                                                       Audit Report


FINDINGS
We reviewed energy right Program MVPs to determine if payments
were accurately calculated, effectively monitored, and properly
disbursed. We also reviewed energy right Program transactions and
supporting documentation to assess energy right Program
process/documentation compliance. In summary, we found (1) MVPs
for water heaters and heat pumps were generally applied correctly
and total invoice amounts were generally accurate, (2) RSCPS
monitored MVPs through review of erIS data and by having
distributors review and certify invoices, and (3) distributors generally
received MVP payments in accordance with the energy right Program
documentation guidelines. However, we also found:

•     Invoice adjustments were not adequately documented and tracked
      in erIS.
•     Some MVPs were paid without complete and/or accurate erIS
      information.
•     Three MVP invoices were not paid and no verification occurred to
      ensure MVPs were made as approved by the district specialists.

We also found that some distributors did not comply with energy right
Program process/documentation requirements.

CALCULATION OF MARKET VALUE PAYMENTS
Distributors receive $50 for each water heater installed in accordance
with the WH Plan. Until January 2004, TVA had two potential MVP
amounts applicable to heat pumps (i.e., the MVP amount was $100 or
$300), and the amount paid by TVA was dependent on the Seasonal
Energy Efficiency Ratio (SEER) rating. 7 Beginning January 16, 2004,
distributors receive $175 regardless of SEER class for heat pumps
meeting energy right Program requirements. We found CS&M
prescribed MVP amounts for 55 of the 59 water heater, and all 59 heat
pump transactions we tested were applied correctly. 8 For the four
exceptions, we found the eligible MVP amounts were apparently not
paid, as discussed in the Disbursement of Market Value Payments
section of this report. We also found another water heater MVP, not
included in our test sample, that was not paid.

7
    "As defined by the Model Energy Code, SEER is the total cooling output of an air
    conditioner during its normal annual usage period for cooling (in Btu/hr) divided by the total
    electric energy (in Watt-hours) input during the same period."
8
    Our assessment assumed prescribed heat pump incentive payments accurately reflected
    SEER ratings.
Audit 2005-003F                                                                            Page 4
Office of the Inspector General                                                  Audit Report


In addition, total invoice amounts were accurate for 108 of the 111
invoices we reviewed. 9 Specifically, we found the correct MVP
amounts were applied to the total number of installations, as identified
by erIS, to determine the total MVP. For the three exceptions, we
noted that:

    •    Two invoices had an MVP overpayment for a heat pump.
    •    One invoice was understated by two of the five water heater
         MVP amounts we identified as not being paid.

We also found four adjustments to the invoices we reviewed. We
obtained documentation and explanations for each adjustment from
the applicable CS&M district specialist, and these adjustments
appeared appropriate. While the adjustments appeared appropriate,
the only means to determine if an adjustment was within energy right
Program guidelines was to contact the district specialists. RSCPS has
consulted with TVA Information Services about including fields in erIS
to identify and explain adjustments. Such information in erIS would
also provide a means to verify that appropriate adjustments have been
made.

MONITORING OF MARKET VALUE PAYMENTS

We determined that monitoring of MVPs occurs essentially by:

•   Review and approval by CS&M district specialists and distributors.
•   Review of erIS data for duplicates and unusual transactions by
    RSCPS personnel.

For the 111 invoices we reviewed, we found the invoices were
generated/approved by district specialists and sent to distributors who
certified the invoices before submitting them to TVA Accounts Payable
for payment. 10

We also reviewed spreadsheets, generated from erIS data, that
included our review sample transactions. We found comments where
RSCPS had reviewed the installation information for unusual
transactions and duplicates. However, we also found 17 transactions
where potential duplicates existed. According to district specialists:
9
   The 118 water heater and heat pump transactions should have applied to 114 distributor
   invoices. Three of the 114 invoices were not found (i.e., the three invoices were not
   submitted and/or not paid). Therefore, we could only review a total of 111 invoices.
10
   Approval methods by district specialists varied: (1) 74 invoices, which contained 78 sample
   items, were signed by hand; (2) 8 invoices had electronic signatures; and (3) 29 invoices
   had typed signatures.
Audit 2005-003F                                                                       Page 5
Office of the Inspector General                                  Audit Report


•   Four were not duplicates; however, two of the four had incorrect
    address information in erIS.
•   Two duplicates were identified and never invoiced.
•   Three duplicates were corrected via adjustments to previous
    invoices, and adjustments were pending for three additional
    duplicates.
•   Four transactions were potential duplicates. The district specialists
    contacted did not provide adequate information to make a
    determination. It was emphasized to us that more that one water
    heater could be installed in a residence.
•   One entry was an undiscovered duplicate. We were told that an
    adjustment would be included on the next distributor invoice.

Certain required information must be entered into erIS prior to the
distributor receiving an MVP, according to RSCPS. The required
information includes the 911 street address, city, state, and zip code
of the dwelling where the water heater or heat pump was installed.
We found that many of the fields in the erIS database were not being
completed, as required. Specifically, we found:

    •    City names, P.O. Boxes, and individual names used as street
         addresses.
    •    Dwelling numbers not included in the street or apartment
         address.
    •    Dwelling numbers used as the street address.

The information in erIS is key to monitoring, including the identification
of duplicates. We also believe the participant name should be
required to facilitate monitoring of duplicate or unusual transactions.

DISBURSEMENT OF MARKET VALUE PAYMENTS
MVP invoices are signed by the district specialist and sent for review
and certification by the distributor. The distributor submits the certified
invoice to TVA Accounts Payable for processing and payment.
According to the manager of RSCPS, distributors have responsibility
for ensuring payments are received. We found that the distributors
received MVPs for 114 of the 118 transactions we reviewed.
Explanations for the four exceptions were as follows:

•   TVA Accounts Payable told us that three invoices applicable to the
    time period for three installations/MVPs could not be found.
    Therefore, the MVPs/invoices were apparently not paid.
Audit 2005-003F                                                      Page 6
Office of the Inspector General                                                 Audit Report


•    A district specialist stated that an MVP was mistakenly not
     included on the applicable invoice and therefore was not paid.

We also noted that TVA Accounts Payable only reviews the certified
invoices submitted by distributors for mathematical accuracy. Neither
CS&M personnel nor Accounts Payable verify that invoices are paid
as approved by district specialists. Distributors could make changes
to invoices, submit the invoices to TVA Accounts Payable, and receive
payment without knowledge and approval by CS&M district
specialists. We found a distributor adjusted its invoice for an MVP that
was due another distributor. Because the district specialist was not
made aware of the adjustment, the entitled distributor did not receive
payment.

energy right® PROGRAM PROCESS/DOCUMENTATION
REQUIREMENTS

We found that some distributors did not comply with certain energy right
Program guidelines pertaining to both the HP Plan and WH Plan.
Specifically, the process/documentation requirements were often not
adhered to by distributors for the installation transactions we reviewed.
Noncompliance by participating distributors increases TVA's financial
risks.

Heat Pump Plan Noncompliance
TVA's energy right Program guidelines and the contract with distributors
require that certain documentation (energy right Program forms) must
be maintained/required for financed and non-financed energy right
Program heat pump installations. In summary, we found that
distributors maintained required documents with customer signatures
for only 37 of the 120 heat pump transactions we tested. 11 For the
remaining 83 heat pump transactions we reviewed, we found that the
required forms were (1) unsigned by the required energy right Program
participant(s) or (2) nonexistent. (The Appendix summarizes by
document the total maintained and signed by customers.) We also
found that many of the document fields were not completed, but energy
right Program guidelines are unclear as to what requested information is
required. 12



11
   Our analysis considers CS&M Resident Products' assertions that both a Contractor-
   Customer Affidavit and WCF are not required.
12
   We reviewed 120 transactions that represented 59 from our statistical sample and 61 from
   our judgmental sample. For the 120 transactions, 102 were financed through the energy
   right Program.
Audit 2005-003F                                                                      Page 7
Office of the Inspector General                                 Audit Report


Due to the lack of compliance with energy right Program guidelines and
TVA's potential liability, we contacted distributors to determine whether
energy right Program participants were making payments for the
102 energy right Program-financed heat pump installations included in
our review. This was an indirect verification of the heat pump
installation since the loan payments were made through each
participant's utility bill. For the 102 financed heat pumps, only three
(2.9 percent) participants were not current on their heat pump loan
through their utility bill. We also compared the reported installation
contractors with the TVA QCN list for all 120 heat pump installations.
We found that in each instance the reported contractor was on the TVA
QCN list at the time of installation.

Water Heater Plan Noncompliance
The contract between each participating distributor and TVA requires
the distributor to maintain a WCF as evidence that a water heater
submitted for an MVP has been installed. The energy right® Program
Reference Manual guidelines also state that documentation should be
maintained by the distributors. The manager of RSCPS informed us
that CS&M was not requiring distributors to maintain documentation
for AEWH installations. Therefore, the only information supporting
MVPs was the information included in erIS by distributors. RSCPS
subsequently agreed that distributors should maintain written
documentation to support MVPs.


RECOMMENDATIONS
We recommend the Senior Vice President, Marketing, take steps to:

•   Ensure adjustments are documented and tracked.
•   Ensure MVPs are supported by required erIS information. Also,
    consideration should be given to requiring the participant's name
    be included in erIS.
•   Require verification that payments to distributors were made as
    approved by district specialists.
•   Ensure that distributors comply with energy right Program
    documentation guidelines.

MANAGEMENT'S RESPONSE
We have discussed the findings, conclusions, and recommendations
with management, and they agree with our report and have taken or
plan to take corrective action.
Audit 2005-003F                                                     Page 8
                                                                                               APPENDIX
                                                                                               Page 1 of 1


                        COMPLIANCE WITH energy right® PROGRAM
                            DOCUMENTATION GUIDELINES

Listed below is a summary for the 120 heat pump transactions we reviewed. This
represented 102 heat pumps financed through the energy right Program and 18 that
did not participate in the TVA financing program. The table lists:

      •     Required documents for energy right Program heat pumps, according to
            RSCPS, categorized by financed and non-financed.

      •     The total number that were maintained with participant signature, maintained
            without participant signature, and nonexistent.
       12

                                        102 Financed Heat Pumps
                                                         Maintained with
                                                             Participant      No Participant
                   Necessary Documents                       Signature          Signature        No Document
                    Contractor - Customer Affidavit        9           9%       0       0%        93    91%
                                                             2
            Heat Pump Plan Work Completion Form          87           85%       2       2%        13    13%
                          Agreement to Participate        89          87%       0       0%        13    13%
                             Repayment Agreement         102         100%       0       0%         0     0%
                                Security Agreement        93          91%       1       1%         8     8%
                          Notice of Right to Cancel       82          80%       1       1%        19    19%
                                                    1
                               Settlement Request         59          58%      N/A      N/A       43    42%
                                                    1
                         UCC Financing Statement          49          48%      N/A      N/A       53    52%


                                     18 Non-Financed Heat Pumps
                                                         Maintained with
                                                            Participant       No Participant
                   Necessary Documents                      Signature           Signature        No Document
                    Contractor - Customer Affidavit       4         22%        1        6%        13    72%
            Heat Pump Plan Work Completion Form           7         39%        6       33%         5    28%




1
    Participant signature not required.
2
    One item under the financed heat pumps counted as "Maintained with Participant Signature" had a New
    Home Work Completion Form, which has no place for signatures, instead of a Heat Pump Plan Work
    Completion Form.
